                                                                             Report No. DODIG-2013-114




              I nspec tor Ge ne ral
                                                       Department of Defense

              AUGUST 6, 2013




                     Cost Increases and Delays Occurred
                     During Closure and Land Transfers
                     of Army Ammunition Plants and
                     Chemical Depots Under Base
                     Realignment and Closure 2005




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Cost Increases and Delays Occurred During Closure and
                                       Land Transfers of Army Ammunition Plants and Chemical
                                       Depots Under Base Realignment and Closure 2005


August 6, 2013                                        Findings Continued

Objective                                                •	 Army officials identified additional factors at KSAAP, NECD,
                                                            and UMCD.
We reviewed the closure and land transfer
at four Army ammunition plants and                    Army officials did not incur major cost increases or delays
two chemical depots closed under Base                 when completing the cleanup and land transfer at Mississippi
Realignment and Closure (BRAC) 2005. We               Army Ammunition Plant because Army officials completed a
identified factors contributing to increased          permit termination. In addition, Environmental Protection Agency
costs and delays in cleaning up and                   and state environmental agency officials did not identify any
transferring the land. We also determined if          new environmental regulations or additional laws that increased
changes in requirements or additional laws            the cost or delayed the transfer of land at the Army ammunition
contributed to the increased costs and delays.        plants and chemical depots.

                                                      As a result, the Army still owns a portion of the closed properties
Findings                                              for an indeterminable amount of time and retains financial
Army BRAC officials experienced increased             responsibility for cleaning up the properties.
costs and delays at Riverbank Army
Ammunition Plant (RBAAP), California;
Kansas Army Ammunition Plant (KSAAP);
                                                      Recommendations
Lone Star Army Ammunition Plant (LSAAP),              We recommend that the Chief, BRAC Division, Army Assistant
Texas; Newport Chemical Depot (NECD),                 Chief of Staff for Installation Management, establish a dispute-
Indiana; and Umatilla Chemical Depot (UMCD),          resolution plan to resolve problems and disagreements between
Oregon, closed under BRAC 2005. Specifically,         the Army, Environmental Protection Agency, state environmental
Army officials experienced cost increases             officials, and local redevelopment authority officials, as they occur.
ranging from $665,000 to an indeterminable
dollar value and indeterminable amount of
delay because:
                                                      Managment Comments
                                                      The Army did not agree with the audit finding or recommendation.
   •	 Army officials and contractor personnel         We did not consider the Army’s comments responsive, and we
      identified additional contamination             made revisions for clarification purposes throughout the report.
      at RBAAP, KSAAP, LSAAP, NECD, and               We request additional comments by September 5, 2013. Please
      UMCD that was unknown at the time of            see the Recommendations Table on the back of this page.
      the BRAC recommendation;

   •	 Army,     Environmental    Protection
      Agency, state environmental, and local
      redevelopment authority officials
      disagreed on clean-up requirements at
      RBAAP, KSAAP, and LSAAP; and

Visit us on the web at www.dodig.mil
                                                                           DODIG-2013-114 (Project No. D2012-D000CG-0206.000) │ i
                   Recommendations Table
                                                                      Recommendation       No Additional
                                        Management                   Requiring Comment   Comments Required
                    Chief, Base Realignment and Closure Division,
                    Army Assistant Chief of Staff for Installation          Yes
                    Management

                   *Please provide comments by September 5, 2013.




ii │ DODIG-2013-114 (Project No. D2012-D000CG-0206.000)
                                   INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                                   August 6, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Cost Increases and Delays Occurred During Closure and Land Transfers of Army
         Ammunition Plants and Chemical Depots Under Base Realignment and Closure 2005
         (Report No. DODIG-2013-114)

We are providing this report for your review and comment. Army Base Realignment and Closure
officials incurred cost increases ranging from $665,000 to an indeterminable dollar value and
indeterminable amount of delay, in the transfer of land at five of the six Army Ammunition Plants
and Chemical Depots. Army officials completed a permit termination at one of the six sites
without incurring major cost increases or delays.

DoD Directive 7650.3 requires that recommendations be resolved promptly. Comments from the
Chief, Base Realignment and Closure Division for the Army Assistant Chief of Staff for Installation
Management were not responsive. Therefore, we request comments on our Recommendation by
September 5, 2013.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file containing
your comments to audacm@dodig.mil. Copies of your comments must have the actual signature
of the authorizing official for your organization. We are unable to accept the /Signed/ symbol
in place of the actual signature. If you arrange to send classified comments electronically, you
must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff.          Please direct questions to me at
(703) 604-9077 (DSN 664-9077).



                                            '--LL(A...~~/~~
                                                     line L. Wicecarver
                                               Assistant Inspector General
                                               Acquisition, Parts and Inventory




                                                                                              DODJG-2013-114   I iii
                  Contents
                  Introduction
                  Objectives ________________________________________________________________________________________1
                  Background ______________________________________________________________________________________1
                  Base Realignment and Closure _________________________________________________________________1
                  Environmental Cleanup Responsibility _______________________________________________________2
                  Army Ammunition Plant and Army Chemical Depot Background and History ____________3
                  Review of Internal Controls ____________________________________________________________________7

                  Finding. Cost Increases and Delays Were
                  Experienced During Land Transfers ___________________________________8
                  Additional Cleanup _____________________________________________________________________________9
                  Disagreements on Cleanup Requirements _________________________________________________ 15
                  Additional Factors ____________________________________________________________________________ 19
                  Mississippi Plant Did Not Have Major Cost Increases or Delays
                  in the Land Transfer __________________________________________________________________________ 23
                  Conclusion _____________________________________________________________________________________ 23
                  Management Comments on the Finding and Our Response _______________________________ 24
                  Recommendation, Management Comments, and Our Response __________________________ 26

                  Appendices
                  Appendix A. Scope and Methodology _______________________________________________________ 29
                       Use of Computer-Processed Data _____________________________________________________ 31
                       Prior Coverage __________________________________________________________________________ 31
                  Appendix B. Base Realignment and Closure Recommendations __________________________ 33
                  Appendix C. Criteria __________________________________________________________________________ 41

                  Management Comments
                  Assistant Secretary of the Army Comments ________________________________________________ 44
                  Army Assistant Chief of Staff for Installation Management Comments ___________________ 46

                  Acronyms and Abbreviations _____________________________________________ 48



iv │ DODIG-2013-114
                                                                                              Introduction




Introduction
Objectives
The overall objective of the audit was to determine whether additional factors increased
costs and delayed the land transfers at Army ammunition plants and chemical depots
closed during Base Realignment and Closure (BRAC) 2005. We also determined whether
changes in requirements or additional laws contributed to increased costs and delays in
the cleanup and transfer at each of the six Army ammunition plants and chemical depots
we reviewed. See Appendix A for the scope and methodology and prior coverage.


Background
The audit was initiated in response to language contained in the report of the Committee
on Appropriations accompanying H.R. 5854 (House Report 112-491), the Military
Construction, Veterans Affairs, and Related Agencies Appropriations Bill for FY 2013.
The report required the DoD Office of Inspector General to review BRAC 2005 closures
and land transfers:

           [t]he Committee directs the Department of Defense’s Inspector General
           to review BRAC 2005 closures and report to the congressional defense
           committees on additional issues that delayed land transfer and
           increased costs to the Department of Defense 180 days after enactment
           of this Act.


Congressional staffers asked the audit team to review the environmental cleanup and
land transfer at the Army ammunition plants and chemical depots listed under the
BRAC 2005 closures to determine whether changes in requirements or additional
laws contributed to increased costs and delays in the cleanup and transfer. To identify
factors contributing to increased costs and delays in cleaning up and transferring the
property, we reviewed closures and land transfers at four Army ammunition plants
and two chemical depots: Riverbank Army Ammunition Plant (RBAAP), California;
Kansas Army Ammunition Plant (KSAAP); Mississippi Army Ammunition Plant (MSAAP);
Lone Star Army Ammunition Plant (LSAAP), Texas; Newport Chemical Depot (NECD),
Indiana; and Umatilla Chemical Depot (UMCD), Oregon.            See Appendix B for the
2005 BRAC recommendations.


Base Realignment and Closure
Congress authorized the BRAC process as a way for DoD to reorganize to efficiently and
effectively support its force structure, increase operational readiness, and facilitate new



                                                                                          DODIG-2013-114 │ 1
Introduction



                 ways of doing business. Congress and DoD designed the BRAC process to be objective,
                 open, and fair. Recommendations were evaluated against eight unique criteria subject
                 to congressional review and public comment. DoD BRAC accounts provide funding
                 for restoration, closure-related compliance, and planning activities at closing military
                 installations. Unlike other appropriations, Congress provides BRAC funding according
                 to BRAC rounds, and the funding remains available until spent.

                 In FY 2011, DoD invested $2.1 billion at BRAC installations to clean up environmental
                 contamination. DoD estimated it would spend $4.3 billion for FY 2012 and requested
                 about $4 billion for FY 2013. By the end of FY 2011, DoD attested that a remedy was in
                 place or a response complete at 62 percent of BRAC 2005 sites. By the end of FY 2013,
                 DoD plans to have a remedy in place or a complete response at 89 percent of Installation
                 Restoration Program sites at BRAC 2005 locations and expects to meet its goals.


                 Environmental Cleanup Responsibility
                 Section 2701, title 10, United States Code, “Environmental restoration program”
                 provides requirements for the Defense Environmental Restoration Program regarding
                 the release of hazardous substances from DoD owned, leased, or possessed facilities.
                 The Defense Environmental Restoration Program goals are:

                          •	 identification, investigation, research and development, and cleanup of
                             contamination from hazardous substances, pollutants, and contaminants;

                          •	 correction of environmental damage, such as detection and disposal of
                             unexploded ordnance creating substantial endangerment to public health,
                             welfare or the environment; and

                          •	 demolition and removal of unsafe buildings and structures.

                 Among its provisions, section 2701 requires DoD to carry out its cleanup of
                 contamination consistent with the requirements of the Comprehensive Environmental
                 Response, Compensation, and Liability Act of 1980 (codified in section 9601-9675,
                 title 42, United States Code) relating to Federal facilities and in consultation with the
                 Administrator of the Environmental Protection Agency (EPA). The land only needs to be
                 cleaned up (remediated) to the standards for the planned reuse. For example, standards
                 of cleanup for land intended for residential use are higher than those for land intended
                 for industrial use. See Appendix C for specific criteria.




2 │ DODIG-2013-114
                                                                                                                                       Introduction



Army Ammunition Plant and Army Chemical Depot
Background and History
The 2005 BRAC Commission recommended the closure of seven Army ammunition
plants and chemical depots:                     RBAAP; KSAAP; MSAAP; LSAAP; NECD; UMCD; and
Deseret Chemical Depot, Utah.               1




The process to transfer property under BRAC involves many parties, such as
Army BRAC environmental coordinators, the local redevelopment authorities (LRAs),
and the DoD Office of Economic Adjustment. An Army BRAC environmental coordinator
helped manage the environmental remediation, and the base transition coordinator
managed the closure and transfer process at each site. In addition, for five of the six sites,
Army officials transferred or plan to transfer the land to the LRA. The DoD recognizes
the LRA as the entity responsible for considering the goals and needs of the community
as well as creating a redevelopment plan for the closed property before the property
is transferred for redevelopment. (The LRAs at each site have different names and
are listed in the scope and methodology.) The DoD Office of Economic Adjustment
helps the LRAs redevelop and transfer the properties by providing planning and
financial assistance. MSAAP did not have an LRA because Army officials completed a
permit termination at MSAAP to return the property to the National Aeronautics and
Space Administration (NASA).


Riverbank Army Ammunition Plant, California
RBAAP is a Government-owned, contractor-operated installation in Riverbank, California,
in Stanislaus County. According to the October 2008 Riverbank Army Ammunition
Plant Base Reuse Plan, the facility, built in the 1940s as an aluminum plant, occupies
173 acres and consists of two noncontiguous areas: the main plant area (146 acres)
and the evaporation and percolation ponds (27 acres). According to the commander’s
representative, RBAAP produced grenades and other munitions.                                               The contractor
later produced shell casings and limited grenade casings until May 31, 2009.
The facility use contract expired on March 31, 2010. The EPA placed RBAAP on the
National Priorities List2 in 1990 because of significant risk to human health and the
environment—primarily because of groundwater contamination from chromium and
cyanide detected on- and off-post. Contaminated sites at RBAAP include the site of an


	1	
    Deseret Chemical Depot, Utah, was originally included as a site to be closed in the 2005 Defense Base Closure and
    Realignment Commission Report but was not closed under BRAC Authority.
	2	
    According to the EPA’s website, the National Priorities List is the list of national priorities among the known releases or
    threatened releases of hazardous substances, pollutants, or contaminants throughout the United States and its territories.
    The National Priorities List is intended primarily to guide the EPA in determining which sites warrant further investigation.




                                                                                                                                    DODIG-2013-114 │ 3
Introduction



                 industrial wastewater treatment
                 plant, an abandoned landfill,
                 and storm-water ponds.              DoD
                 and EPA signed an interagency
                 agreement in April 1990 to
                 outline       cleanup      procedures.
                 (Additional information about
                 RBAAP is on pages 9, 15, and 33
                 of this report.) Figure 1 shows                 Figure 1. RBAAP Industrial Building	
                 an industrial building at RBAAP.                Source: OIG Photographer



                 Kansas Army Ammunition Plant
                 KSAAP is 2 miles east of Parsons, Kansas, in Labette County.                            According to the
                 August 2007, Comprehensive Master Redevelopment Plan for KSAAP, construction began
                 in August 1941, and the installation was completed in November 1942. KSAAP produced
                 artillery shells and bombs and their components, such as fuses, boosters, detonators,
                 relays and primers. KSAAP was placed on standby status from September 1945 to
                 August 1950. During this time, operations at the site primarily involved the receipt,
                 storage, and issuance of ammunition and explosives, as well as site maintenance and
                 preservation. Available land was also leased out for agriculture. KSAAP was reactivated
                 in 1950. Army officials placed KSAAP on standby status in 1957 after production
                 diminished.         Army officials reactivated KSAAP in 1967, during the Vietnam War.
                 (Additional information about KSAAP is on pages 11, 16, 19, and 35 of this report.)
                 Figure 2 shows an ammunition storage building at KSAAP.




                     Figure 2. Ammunition Storage Building at KSAAP     Source: Contracting officer’s representative at KSAAP




4 │ DODIG-2013-114
                                                                                             Introduction



Mississippi Army
Ammunition Plant
MSAAP is in the southwestern corner
of Mississippi, in Hancock County.
According to the Environmental
Condition    of    Property   Report
for MSAAP, November 2006, on
July 7, 1978, the Army obtained a
50-year irrevocable permit from
                                        Figure 3. Aerial View of MSAAP 	   Source: NASA
NASA to use about 7,149 acres
of the John C. Stennis Space Center property to build and operate MSAAP.
Construction started in 1978, and the first testing of a completed projectile
was in 1984.      The primary mission of the facility was the testing, development,
manufacture, and management, of the M483 155-mm artillery improved conventional
munitions. In 1990, DoD placed MSAAP on inactive status and began the layaway
process for the equipment and facilities. The Army ceased production in 1992 and
amended the permit four times, returning about 2,935 acres of land and property to
NASA. MSAAP covered 4,214 acres of land within the boundaries of the John C. Stennis
Space Center until Army officials completed the return of the remaining land to NASA.
(Additional information about MSAAP is on pages 23 and 36 of this report.) Figure 3 is
an aerial view of MSAAP at the National Space Technology Laboratory.


Lone Star Army Ammunition Plant, Texas
LSAAP is in the northeastern corner of Texas, in Bowie County, and occupies about
15,500 acres. According to the Lone Star/Red River Reuse Master Plan, 2007, LSAAP
is a Government-owned, contractor-operated shell-loading installation completed in
1942. The contractor operating the installation during World War II was responsible
for its deactivation procedures in 1945.    The installation’s function was primarily
demilitarization and renovation work and was administered by the Ammunition
Division of Red River Arsenal. The Army transferred about 8,984 acres of land to the
LRA and about 5,424 acres of land to the operating contractor under early transfer
authority.   The Army retained responsibility for the environmental cleanup of the
High Explosive Burning Ground, High Explosive Demolition Ground, and XX Test Area
while building decontamination is in progress.        Army officials also retained the
Area A Landfill and the Old Demolition Area. EPA listed the Old Demolition Area on
the National Priorities List in 1987 because of metals and explosive contamination.




                                                                                          DODIG-2013-114 │ 5
Introduction




                     Figure 4. High Explosive Demolition Ground Retention Pond		              Source: OIG Photographer


                 (Additional information about LSAAP is on pages 11, 17, and 37 of this report.) Figure 4
                 shows a retention pond containing elevated metal concentrations at the High Explosive
                 Demolition Ground of LSAAP.


                 Newport Chemical Depot, Indiana
                 NECD is in Vermillion County in west-central Indiana and occupies about 7,130 acres
                 of land. According to the NECD Reuse Plan, December 2009, the Army produced
                 explosives, a chemical nerve agent, and heavy water at NECD from 1942 to 1975, which
                 resulted in known and potential contamination of soil, groundwater, surface water,
                 and structures. In addition, the Army stored the chemical nerve agent at NECD until
                 its destruction at the Newport Chemical Demilitarization Facility from 2002 through
                 2008. On September 30, 2011, the Army transferred 6,652 acres to the LRA through the
                 approved Economic Development Conveyance,3 and on September 14, 2012, transferred
                 an additional 480 acres to the LRA. Army officials will transfer the remaining five acres
                 after completion of the environmental remediation. (Additional information about
                 NECD is on pages 12, 19, and 39 of this report.) Figure 5 shows the concrete silos at NECD.




                     Figure 5. Concrete Silos at NECD	        Source: OIG Photographer


                 	3	
                       An Economic Development Conveyance is a method of transfer that allows the LRA to obtain all or large portions of
                       property with favorable terms and conditions. An Economic Development Conveyance may be for less than fair market
                       value, under certain circumstances, to allow economic development such as job creation or retention.



6 │ DODIG-2013-114
                                                                                              Introduction




Figure 6. Umatilla Chemical Agent Disposal Facility	   Source: OIG Photographer


Umatilla Chemical Depot, Oregon
UMCD is in northeastern Oregon, about 3 miles south of the Columbia River, in
Umatilla and Morrow Counties.                Army officials established UMCD as an ordnance
depot in 1941. The site consists of about 19,729 acres. According to the UMCD Base
Redevelopment Plan, August 2010, during the first 10 years of operations, UMCD’s primary
activities were receipt, storage, and redistribution of various caliber ammunition and
other conventional munitions. Over the next 10 years, UMCD expanded activities to
include open burning/open detonation of munitions components; testing, maintenance,
and recycling of munitions; and storage and maintenance of missiles and missile
fuel components.         About 1962, UMCD also started storing and maintaining nerve
agents and blister agents. In 1988, the BRAC Commission recommended realignment
of UMCD to facilitate closure as soon as the demilitarization was completed.
The 1988 BRAC Commission was unable to close UMCD because of the ongoing
chemical demilitarization process, and UMCD was realigned in September 1994.
Army officials completed the chemical demilitarization process and closed UMCD in
August 2012. (Additional information about UMCD is on pages 13, 20, and 40 of this
report.) Figure 6 shows the Umatilla Chemical Agent Disposal Facility.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. The Army Assistant Chief
of Staff for Installation Management’s internal controls over its processes for closing
and transferring property at the Army ammunition plants and chemical depots we
reviewed during BRAC 2005 were effective as they applied to the audit objective.




                                                                                          DODIG-2013-114 │ 7
Finding




                 Finding
                 Cost Increases and Delays Were Experienced During
                 Land Transfers
                 Army BRAC officials for five of the six Army ammunition plants and Army chemical
                 depots experienced increased costs ranging from $665,000 to an indeterminable dollar
                 value and indeterminable amount of delay for the land transfers.4 Specifically, the
                 increased costs and delays occurred because:

                               •	 Army officials and contractors identified additional areas requiring
                                   environmental remediation that were unknown at the time of the BRAC
                                   recommendations at five of the six sites (RBAAP, KSAAP, LSAAP, NECD,
                                   and UMCD);

                               •	 Army, EPA, state environmental agency, and LRA officials disagreed
                                   on cleanup requirements at three of the six sites (RBAAP, KSAAP, and
                                   LSAAP); and

                               •	 Additional factors delayed the land transfers at three of the six sites
                                   (KSAAP, NECD, and UMCD).

                 Army BRAC officials did not incur major cost increases or delays when completing
                 the environmental cleanup and permit termination of MSAAP.                                               In addition, EPA
                 and state environmental agency officials did not identify any new environmental
                 regulations or additional laws that increased the cost or delayed the transfer of land
                 at the Army ammunition plants and chemical depots.

                 As a result, the Army still owns a portion of the closed properties for an indeterminable
                 amount of time and retains the financial responsibility for cleaning up the properties.




                 	4	
                       Army BRAC officials were unable to identify the extent of delays or quantify the increased costs at the installations because
                       the Army BRAC officials are still identifying the extent of environmental cleanup needed.




8 │ DODIG-2013-114
                                                                                                                                        Finding



Additional Cleanup
Army BRAC officials incurred additional indeterminable cleanup costs and experienced
delays in the transfer of land at five of the six sites because Army officials and contractor
personnel identified additional contamination after the BRAC 2005 recommendations
were finalized.

            •	 Army officials at RBAAP were (as of January 2013) conducting additional
                investigations to determine the extent of polychlorinated biphenyl (PCB)
                contamination released from weathered Galbestos5 siding used on site
                buildings and identify the appropriate response action.

            •	 At KSAAP, Army officials (as of February 2013) needed to remediate
                munitions and explosives of concern.6

            •	 Army officials at LSAAP were, as of December 2012, still assessing the
                extent of the contamination because the environmental cleanup was greater
                than anticipated.

            •	 At NECD, Army officials have an ongoing PCB remediation contract on 5 acres
                of the land, as a result of contamination found after initial assessments.

Additionally, Army officials at UMCD may have to complete additional cleanup of
buildings constructed with asbestos-containing materials. As a result, the Army will
incur costs for cleaning up the properties as well as maintaining portions of the closed
properties for an indeterminable period.


Additional Assessments Required Because of Discovery of
Galbestos
Army program managers and the commander’s representative for RBAAP may incur
additional cleanup costs and delays in transfer of land to the LRA because Army officials
need to determine the extent of PCB contamination resulting from the Galbestos siding
discovered on the buildings and identify the appropriate response. According to the
California EPA, Central Valley Regional Water Quality Control Board (Central Valley
Water Board) officials, Army officials were ready to transfer RBAAP in 2009, but a




	5	
    The U.S. Army Corps of Engineers prepared a Galbestos Investigation Report, which explained Galbestos is a corrugated
    sheet metal product with a layer of asbestos felt on one side that is dipped in an asphaltic coating containing PCBs.
	6	
    Any materials originating from unexploded ordnance, discarded military munitions, or other military munitions, including
    explosive and non-explosive materials, and emission, degradation, or breakdown elements of such ordnance or munitions
    present in high enough concentration to pose an explosive hazard.




                                                                                                                               DODIG-2013-114 │ 9
Finding




                  Figure 7. Aluminum Presses at RBAAP	 Source: OIG Photographer


                 consultant company brought in by the LRA identified the Galbestos siding on a number of
                 industrial-use buildings. The U.S. Army Corps of Engineers also stated in the Galbestos
                 Investigation Report that over the years, the Galbestos siding weathered and released
                 non-liquid PCBs into the interior and exterior of the buildings. Figure 7 shows aluminum
                 presses used to manufacture shell casings inside the industrial buildings at RBAAP.

                 According to the commander’s representative, the Army’s initial baseline study to
                 identify the extent of the PCB contamination began in 2010 and, as of January 2013,
                 was not completed. Army program managers and the commander’s representative for
                 RBAAP have not completed the assessment of how far the PCB contamination spread
                 into the soil, which according to the California EPA’s Department of Toxic Substance
                 Control, is necessary to determine the method and cost of cleanup. Figure 8 shows an
                 industrial building with Galbestos siding that weathered and released PCBs. Although




                      Figure 8. Industrial Building With Galbestos Siding	   Source: OIG Photographer




10 │ DODIG-2013-114
                                                                                                                                         Finding



Army officials identified additional contamination resulting in cost increases and delays
at RBAAP, EPA officials identified changes, unrelated to the additional contamination,
in the public health goals for hexavalent chromium. According to EPA officials, the new
public health goal is stricter; however, the public health goal is not enforceable until the
contaminant reaches the maximum contaminant level.7 Therefore, this new goal did not
result in cost increases or delays.


Contamination at KSAAP Requires Remediation
Army BRAC officials involved with the closure and transfer of KSAAP will incur additional
cleanup costs and encounter delays in the transfer of land to the LRA because of
additional remediation of munitions and explosives of concern. Army officials closed
KSAAP in March 2009; however, as of February 2013, the former operating contractor
continues to operate several areas with facility use contracts for both DoD and
non-DoD munitions items. Army officials projected completing the negotiated sale of the
remaining 4,112 acres to the operating contractor as of November 30, 2012. However, as
of February 2013, Army officials retained several parcels of land on which the Army had
not completed remediation of munitions and explosives of concern. Army officials began
the remedial investigation of these parcels. In addition, Kansas Department of Health
and Environment officials stated that no new requirements or additional laws resulted
in cost increases or delays.


Environmental Contamination at LSAAP Was Greater Than
Anticipated
The extent of environmental contamination was greater
than anticipated at LSAAP; therefore, Army BRAC                                               During
                                                                                           assessments,
officials may incur additional cleanup costs and                                           Army officials
delays in the transfer of land. As of December 2012,                                   discovered additional
Army officials were still assessing the extent of                                    environmental problems,
                                                                                        such as unexploded
contamination in buildings onsite containing
                                                                                        ordnance scattered
explosives residue.                 According to the BRAC                             throughout the site and
environmental coordinator, LSAAP contains many                                           outside of known
                                                                                            boundaries.
unknown contaminants dating back to 1941. During
assessments,           Army        officials      discovered         additional
environmental problems, such as unexploded ordnance
scattered throughout the site and outside of known boundaries. In addition, Army
officials cannot estimate the additional cleanup costs until they determine the extent of
contamination throughout the property and identify the needed remedial actions.

	7	
      The maximum contaminant level is the maximum permissible level of a contaminant in water that is delivered to any user
      of a public water system.


                                                                                                                               DODIG-2013-114 │ 11
Finding




                      Figure 9. XX Test Area at LSAAP	      Source: OIG Photographer


                 According to LRA officials at LSAAP, the XX Test Area is dangerous because of the
                 presence of munitions and explosives, and strong evidence exists that munitions and
                 explosives are present outside the fenced area. LRA officials expect the Army to follow
                 a Memorandum of Agreement that directs the Army to remove any munitions and
                 explosives when found. LRA officials expect the area to be left as property ready for
                 industrial-use. Army officials acknowledged their obligation pursuant to DoD policy
                 and law to remove explosive hazards or dispose of munitions and explosives on
                 the property and are responding to and addressing the problem.                                  According to
                 Texas Commission on Environmental Quality officials, no additional laws or regulations
                 resulted in delays or cost increases. Figure 9 shows the XX Test Area, where LSAAP
                 personnel formerly tested munitions; contractor personnel are conducting ongoing
                 environmental remediation at the site.


                 Recently Found Contamination at NECD Requires Additional
                 Remediation
                 Army program managers and the BRAC
                 environmental coordinator for NECD
                 have an ongoing PCB remediation
                 contract          to     address        additional
                 contamination found on about 5 acres
                 of land. This additional contamination
                 may result in additional cleanup costs
                 and delays in the transfer of land to the
                                                                         Figure 10. Train Loading Dock at NECD
                 LRA. According to Army officials, EPA                   Source: OIG Photographer
                 required additional remediation of the
                 PCB-contaminated soils under the Toxic Substances Control Act. Army officials did not
                 identify the PCB-contaminated soil during initial environmental assessments. Figure 10
                 shows an old train loading dock used to load and unload raw explosives.


12 │ DODIG-2013-114
                                                                                                    Finding




Figure 11. Storage Igloos at NECD	   Source: OIG Photographer


As of October 2012, Army officials had a contract in place to clean up the PCB
contamination; the remaining cost to complete the NECD cleanup is for the PCB
cleanup. The final 5 acres will not be transferred until the soil remediation is completed.
EPA requires additional work, including excavation and installation of a cap, along
with collection of surface and subsurface soil samples. EPA officials also require the
removal and disposal of soil containing asbestos, in addition to the installation of
an additional fence in accordance with the remediation agreements.               Although
Army officials identified additional contamination needing remediation at NECD, no
new requirements or additional laws resulted in cost increases or delays. Figure 11
shows storage igloos at NECD.


Buildings With Asbestos-Containing Materials May Require
Additional Cleanup
Army BRAC officials involved in the closure and transfer of UMCD may be required to
remove asbestos-containing materials and lead-based paint from buildings which may
result in Army officials incurring additional cleanup costs and land transfer delays. A
portion of the land (about 1,794 acres) that Army officials are considering transferring
to the LRA includes multiple buildings constructed with asbestos-containing materials
and lead-based paint. According to EPA officials, these buildings are not a problem




                                                                                          DODIG-2013-114 │ 13
Finding



                 unless the buildings are demolished and the contaminants have migrated into the
                 soil. According to EPA officials, the buildings have not received maintenance for over
                 20 years and, therefore, are no longer usable. Officials from the Oregon Department of
                 Environmental Quality want the Army to abate the asbestos-containing materials and
                 lead-based paint before the Army transfers the property to the LRA. The LRA does not
                 have the funding to clean-up the property and make it available for reuse. DoD officials
                 believe Oregon Department of Environmental Quality officials are applying a new
                 interpretation to a longstanding regulation.

                 Army officials are required only to remediate the property if there are releases to the
                 environment at unacceptable levels based on the planned reuse. If the LRA does
                 not want to accept the property, including the buildings with asbestos-containing
                 materials and lead-based paint, Army officials may transfer this portion of the
                 property to the Oregon National Guard. If the Oregon National Guard accepts the land,
                 Army officials would still have to perform any necessary cleanup under the
                 Comprehensive Environmental Response, Compensation, and Liability Act. Army officials
                 identified a new maximum contaminant level for arsenic in drinking water and
                 as of April 2013 were developing a sampling plan. However, the Army officials have
                 not spent additional funds. Figure 12 shows buildings constructed with asbestos-
                 containing materials at UMCD.




                      Figure 12. Building With Asbestos-Containing Material at UMCD		   Source: OIG Photographer




14 │ DODIG-2013-114
                                                                                                                                  Finding



Disagreements on Cleanup Requirements
Army, EPA, state environmental agency, and LRA officials involved with the closures
and land transfer at the RBAAP, KSAAP, and LSAAP sites disagreed when coordinating
environmental cleanup procedures which caused increased costs and delayed the
transfer of land, at each site. Specifically:

              •	 Army, EPA, and state environmental agency officials at RBAAP disagreed on
                  the remediation of Galbestos;

              •	 Army officials, EPA officials, and Kansas Department of Health and
                  Environment personnel at KSAAP disagreed on the cleanup of applied
                  pesticides; and

              •	 Army officials and LRA personnel at LSAAP disagreed on cleanup
                  responsibilities negotiated in the Economic Development Conveyance
                  Memorandum of Agreement.

Disagreements Regarding Galbestos Remediation Resulted in
Potential Cost Increases and Delays
Army program managers and the commander’s representative for RBAAP experienced
potential cost increases and delays because of disagreements regarding the remediation
of Galbestos. Army and LRA officials disagreed on the development of a work plan to
remediate the areas of land causing additional delays at the RBAAP. According to the
California Department of Toxic Substances Control officials, Army officials and the
LRA cannot issue a Finding of Suitability for Early Transfer8 until the contamination
is assessed and a work plan to remediate the contaminated areas is negotiated. The
                                commander’s representative indicated that multiple projects to
                                     determine the extent of environmental contamination started
             Army
           and LRA                      and stopped because the projects were not in the LRA’s best
      officials’ inability               interest. EPA officials stated that they worked with the
      to develop a work
                                         Army and the redevelopment authority to find the best
         plan caused
      additional delays                  strategy and options to remediate and transfer the property.
          at RBAAP.                     However, the Army and LRA officials’ inability to develop a
                                      work plan caused additional delays at RBAAP.

	8	
      A Finding of Suitability for Early Transfer is a method of early disposal allowable under the provisions of
      Section 120(h)(3)(C) of the Comprehensive Environmental Response, Compensation, and Liability Act. This finding
      defers the requirement to complete all necessary environmental cleanup prior to the transfer of the property.




                                                                                                                        DODIG-2013-114 │ 15
Finding



                 Specifically, according to Central Valley Water Board officials, Army and Army Corps
                 of Engineers officials were untimely in their responses to comments provided by
                 Central Valley Water Board officials regarding PCB contamination at RBAAP. Central
                 Valley Water Board officials stated they provided the Army with comments that
                 were reviewed by the Army Corps of Engineers. According to Central Valley Water
                 Board officials they submitted comments in September 2011 but received only partial
                 responses in February 2012. The Army responses stated that some of the Central Valley
                 Water Board comments were not applicable. As a result, the Army program managers
                 and the commander’s representative incurred additional delays in remediating the
                 contaminated areas at RBAAP.


                 Disagreements on Whether Applied Pesticides Require
                 Cleanup Resulted in Potential Cost Increases and Delays
                 Army program managers and the BRAC environmental coordinator at KSAAP
                 incurred potential cost increases and delays because of disagreements among EPA
                 Region 7, Kansas Department of Health and Environment officials, and themselves
                 regarding the remediation of applied pesticides. Army and EPA officials discussed
                 the cleanup of applied pesticides at KSAAP in letters spanning January 2011 to
                 April 2012. It became apparent that their interpretations differed on the cleanup
                 of applied pesticides.                 According to EPA officials, applied pesticides in the soil
                 around buildings are considered “solid waste” under the Resource Conservation and
                 Recovery Act (RCRA) if the buildings are demolished, and are thus potentially subject
                 to the corrective action terms of a RCRA permit. Army and DoD officials considered
                 the applied pesticides to be products used as intended, not solid waste as discarded
                 material, and therefore outside the scope of RCRA.9 According to the Army officials,
                 it is an unexpected and extraordinary expansion of the obligations of RCRA to apply
                 solid-waste-management requirements to soil where pesticides have been applied but
                 “no longer serve their intended purpose.” Army officials discussed efforts to remediate
                 the property with Kansas Department of Health and Environment officials, reaching
                 the conclusion that the Army’s actions are in compliance with the environmental legal
                 standards. According to Kansas Department of Health and Environment officials, Army
                 and EPA officials were unable to reach an agreement. Army, EPA, and state environmental
                 agency officials’ inability to reach an agreement sooner caused at least a 16-month
                 delay in transferring the property and increased costs. According to the April 30, 2012,
                 letter from the EPA, Army and EPA officials agreed to establish a joint work group to


                 	9	
                       The parties also disagreed on whether EPA’s position with respect to applied pesticides was a new interpretation of
                       existing laws and regulations, which had not been raised on non-DoD properties, or was consistent with the EPA’s
                       longstanding policy.




16 │ DODIG-2013-114
                                                                                                                                            Finding



discuss and resolve site-specific issues to provide more consistency in addressing
pesticides. As of June 2013, however, the Army reports that Army and EPA officials
remain unable to reach an agreement.

EPA officials have RCRA permit authority and would not allow the closure of the
RCRA permit from the phase 2 Economic Development Conveyance parcel of property
(6,116 acres), because the Army and the EPA disagreed in their interpretation of the
cleanup requirements for these materials.                              The Kansas Department of Health and
Environment and the LRA resolved the RCRA permit disagreement through the
Environmental Consent Order, which instituted an Environmental Use Control
Program.10 The U.S. Army Corps of Engineers prepared and signed the deed for the LRA’s
portion of the property in August 2012 and officially transferred 6,116 acres to the LRA.


Disagreements Regarding the Cleanup Negotiated in the
Economic Development Conveyance Memorandum of
Agreement Resulted in Potential Cost Increases and Delays
Army program managers and the BRAC environmental coordinator for LSAAP incurred
delays and potential cost increases because they disagreed about how to adhere to
the Economic Development Conveyance Memorandum of Agreement negotiated with
the LRA. Army officials negotiated the Memorandum of Agreement with the LRA on
September 1, 2010. Both parties agreed that:

               •	 the LRA does not have an affirmative obligation to the Army to conduct
                   or fund explosive decontamination or removal of munitions and explosives
                   removal at the property, unless otherwise agreed by the Army and the
                   LRA; and

               •	 the Army acknowledges its obligation pursuant to DoD policy and applicable
                   law to abate explosive hazards or dispose of munitions and explosives of
                   concern, as appropriate, on the property.

According to LRA officials, the XX Test Area contains munitions and explosives of
concern, and evidence of munitions and explosives of concern outside the fenced area
leaves the public on the transferred property potentially exposed to explosive hazards.
LRA officials expected the area to be abated and transferred as negotiated in the
Memorandum of Agreement. However, Army officials are 2 years behind schedule and


	10	
       The Environmental Use Control Program is an institutional or administrative control on a specific property, to ensure future
       protection of public health and the environment when environmental contamination exceeds department standards for
       unrestricted use.




                                                                                                                                  DODIG-2013-114 │ 17
Finding




                      Figure 13. Environmental Remediation of XX Test Area at LSAAP		   Source: OIG Photographer


                 have not provided a resolution to clear and remove munitions and explosives of concern
                 from the area. Army officials may incur increased costs and delays in the transfer of
                 property because Army officials have not yet determined the extent of the hazards and a
                 resolution for removing the munitions and explosives of concern from the XX Test Area.
                 Figure 13 shows ongoing environmental remediation at the XX Test Area at LSAAP.

                 In addition, LRA officials stated that Army officials did not adhere to the Memorandum
                 of Agreement requirement to negotiate and develop an Environmental Services
                 Cooperative Agreement. According to the Memorandum of Agreement, both parties
                 agreed to make good-faith efforts to enter into a phased Environmental Services
                 Cooperative Agreement within 90 days of settlement on the property transfer to
                 the redevelopment authority.              The Environmental Services Cooperative Agreement
                 is designed to provide environmental services to implement and maintain land use
                 controls and provide long-term maintenance responsibilities for the remediation of
                 hazardous substances. However, Army officials did not draft an Environmental Services
                 Cooperative Agreement with LRA officials and according to LRA officials, did not
                 make good-faith efforts to fulfill the provisions within 90 days as required. The Chief,
                 BRAC Division for the Assistant Chief of Staff for Installation Management should
                 establish a dispute resolution plan through which the Army, EPA, state environmental
                 agency, and the LRA officials involved can resolve disagreements as to cleanup
                 requirements and problems as they occur.




18 │ DODIG-2013-114
                                                                                                  Finding



Additional Factors
Army BRAC officials involved in the closure and transfer of KSAAP, NECD, and UMCD
identified additional factors that caused increased costs and land transfer delays.
Specifically, Army program managers and the base transition coordinator for KSAAP
were involved as defendants in a lawsuit, and Army BRAC officials for NECD needed
to prepare a revised biological assessment of the land closure and reuse effects on
an endangered species. In addition, Army officials involved in the closure and land
transfer of UMCD needed to complete the land transfer for a portion of the property to
the Oregon National Guard, as well as find a new prospective land owner for one parcel of
the property. Furthermore, the 2005 BRAC Commission’s conditional recommendation
to close UMCD resulted in UMCD being removed from the BRAC 2005 closure list.
However, the National Defense Authorization Act later re-added UMCD to the BRAC 2005
list, delaying transfer of the site.


Lawsuit Involvement Resulted in Cost Increases and Land
Transfer Delays
Army program managers and the base transition coordinator for KSAAP were
involved in a lawsuit filed against the contractor responsible for the KSAAP caretaker
contracts and the LRA, which caused Army officials to experience potential cost
increases and indeterminable delays. A railcar operator at KSAAP filed the lawsuit
over a contractual issue, which put the title in a state of lis pendens (“suit pending”),
imposing restrictions on the transfer of the property, except for 1,000 acres the Army
was selling to the Kansas Department of Wildlife and Parks under the Army Compatible
Use Buffer Authority.      All parties to the lawsuit eventually agreed to a mediation
process, and the lawsuit was settled. The LRA agreed that the railcar operator would
continue exclusive rail operations for 1 year. According to Army program managers,
the railcar lawsuit was filed after the resolution of environmental problems, and the
Army’s involvement did not hold up the land transfer. However, the LRA stated the
lawsuit created a delay in its ability to operate the rail system, reducing the expected
revenue stream post transfer. In addition to the delay, the LRA incurred extra costs of
about $450,000 in attorney fees.


Completion of a Revised Biological Assessment Resulted in
Increased Costs and Delays in the Land Transfer at NECD
Army program managers and the BRAC environmental coordinator for NECD identified
about a $665,000 cost increase and a 7-month delay as a result of completing a revised




                                                                                        DODIG-2013-114 │ 19
Finding



                 biological assessment on land closure and
                 reuse affecting the Indiana bat (M. sodalis),
                 an endangered species.      Section 1536 of
                 the “Endangered Species Act,” title 16,
                 United States Code, requires agencies to
                 conduct biological assessments to identify
                 any endangered species or threatened
                 species likely to be affected by a proposed
                 agency action.     Originally, Army officials
                 conducted and submitted a biological
                                                                     Figure 14. The Indiana Bat (M. sodalis)
                 assessment, dated October 2010, to the              Source: U.S. Fish and Wildlife Service
                 U.S. Fish and Wildlife Service.    However,
                 Army officials needed to prepare a revised biological assessment to incorporate changes
                 in response to comments received, and as a result of consultations held between the
                 Army and the U.S. Fish and Wildlife Service starting in December 2010. A letter dated
                 August 2011 shows Army officials submitting the revised biological assessment to
                 the U.S. Fish and Wildlife Service for concurrence. Army officials determined through
                 the biological assessment process that the disposal and reuse of NECD may affect
                 the Indiana bat.     The U.S. Fish and Wildlife Service conditionally concurred in
                 September 2012. Figure 14 is a photograph of the Indiana bat. Army BRAC officials
                 incurred about a 7-month delay because of revisions to the biological assessment to
                 reflect changes required by the U.S. Fish and Wildlife Service. In addition, according
                 to Army program managers, the Army incurred about $600,000 in increased costs for
                 the caretaker services contract at NECD while Army officials prepared the revised
                 biological assessment. Army officials paid for the biological assessment, which cost
                 about $65,000.


                 Three Additional Factors at Umatilla Chemical Depot Created
                 Potential Cost Increases and Land Transfer Delays
                 Army BRAC officials identified three factors causing potential increased costs and delays
                 in the land transfer of the 19,729 acres at UMCD:

                         •	 completion of a land transfer;

                         •	 identification of a new prospective land owner for a portion of property; and

                         •	 the 2005 BRAC Commission’s conditional recommendation to close UMCD
                            resulted in UMCD being removed from the BRAC 2005 closure list because
                            Army officials did not meet the deadline. The National Defense Authorization
                            Act subsequently returned UMCD to the BRAC 2005 list.



20 │ DODIG-2013-114
                                                                                                                                   Finding



Army officials at UMCD are scheduled to transfer a large portion of the land to the
Oregon National Guard through the National Guard Bureau.                                      The Oregon National
Guard had used a portion of UMCD since the 1980’s. According to the base transition
coordinator at UMCD, the Oregon National Guard was deployed when the BRAC
recommendation was approved. According to the BRAC environmental coordinator at
UMCD, as of January 2013, Army officials were still trying to identify a way to complete
the property transfer to the National Guard Bureau in order to maintain Federal status
for the property. Army BRAC officials stated they planned to transfer the property to a
U.S. property and fiscal officer. Army officials plan to complete the transfer by July 2013.

Army officials experienced additional
delays because the Army needed to find
a new property owner for a portion
of the land at UMCD that is to remain
as a wildlife refuge. According to the
U.S. Army Umatilla Chemical Depot
Base Redevelopment Plan, prepared by
the LRA and an Army news article, the
habitat in the 5,613-acre UMCD wildlife
refuge represents some of the last large                        Figure 15. The Pronghorn Antelope (A. americana)
                                                                Source: OIG Photographer
contiguous tracts of shrub-steppe11
terrain home to species including the burrowing owl (A. cunicularia) and the pronghorn
antelope (A. americana). Figure 15 shows a herd of the pronghorn antelope.

                                                                            The      Army       news        article   also
                                                                            explained        that     the     burrowing
                                                                            owl is listed as a national “bird
                                                                            of conservation concern” in the
                                                                            U.S. Fish and Wildlife Service Pacific
                                                                            Region. The Army partnered with
                                                                            the U.S. Fish and Wildlife to develop
                                                                            a new burrowing owl habitat
                                                                            called owl burrows. The Army and
 Figure 16. The Burrowing Owl (A. cunicularia) and an ‘owl                  U.S. Fish and Wildlife, along with
 burrow’	    Source: U.S. Army Environmental Command
                                                                            volunteers from the community,
built six clusters of three burrows, for a total of 18 burrows across UMCD. Figure 16
shows a burrowing owl next to an owl burrow built at UMCD.

	11	
       Shrub-steppe habitats are open grass-dominated communities usually found on wind-deposited soils.




                                                                                                                         DODIG-2013-114 │ 21
Finding



                 Army officials stated they were originally going to transfer the portion of land to the
                 U.S. Fish and Wildlife Service as a wildlife refuge that would preserve the shrub-steppe
                 and grassland habitats for existing and future wildlife species. However, according to the
                 base transition coordinator, the U.S. Fish and Wildlife Service officials decided not to take
                 the land because of budget constraints that would prevent them from maintaining the
                 property. According to the base transition coordinator, the Confederated Tribes of the
                 Umatilla Indian Reservation, Oregon, wants to maintain the Federal status of the property
                 and is assisting in identifying a Federal agency to take over the wildlife refuge.

                 Army officials experienced about a 1-year delay in transferring the property to new
                 property owners because the 2005 BRAC Commission recommended the closure of
                 UMCD through a conditional recommendation, but Army officials did not close UMCD
                 by the September 15, 2011, deadline, which removed UMCD from the BRAC 2005
                 closure list. However, the FY 2012 National Defense Authorization Act returned UMCD
                 to the BRAC 2005 closure list. According to OUSD (AT&L) officials, the chemical depot
                 recommendations include a condition that, if not met, voids the recommendation.
                 Specifically, the UMCD recommendation states, “On completion of the chemical
                 demilitarization mission in accordance with Treaty obligations, close Umatilla Chemical
                 Depot, OR.” OUSD (AT&L) officials stated that this meant if Army officials did not
                 complete the Convention on the Prohibition of the Development, Production, Stockpiling
                 and Use of Chemical Weapons and on their Destruction treaty obligation within the
                 6-year period, the recommendation fails. In December 2011, Congress passed legislation
                 in the National Defense Authorization Act for FY 2012, granting authority to complete
                 the closure of UMCD as recommended in the 2005 BRAC report:

                          •	 without regard to any condition contained in the recommendation, and

                          •	 not later than 1 year after the completion of the chemical demilitarization
                             mission in accordance with the Chemical Weapons Convention Treaty.

                 Army officials closed UMCD in August 2012, incurring about a 1-year delay because
                 the property did not transfer during this time.          The base transition coordinator
                 at UMCD stated the Army maintains a caretaker contract on UMCD costing about
                 $2 million annually; however, Army officials have a memorandum of understanding
                 with the U.S. Chemical Materials Agency, for closure of the two RCRA permits and the
                 U.S. Chemical Materials Agency pays for about half of the caretaker contract.




22 │ DODIG-2013-114
                                                                                                 Finding



Mississippi Plant Did Not Have Major Cost Increases or
Delays in the Land Transfer
Army BRAC officials did not incur major cost increases or delays when completing
the environmental cleanup and permit termination for MSAAP. Army officials obtained
a 50-year permit from NASA to use a portion of property at the John C. Stennis Space
Center, Mississippi, to build and operate MSAAP.       Over the years, Army officials
returned some of the property to NASA by amending the permit. On November 8, 2010,
NASA and the Army terminated the permit agreement, and NASA agreed to accept the
return of MSAAP property before Army officials completed all required environmental
remediation. NASA officials agreed to accept the property on the condition that any
future response actions required as a result of the Army’s activities would remain the
responsibility of the Army. Mississippi Department of Environmental Quality officials
stated MSAAP did not require extensive environmental remediation. According to NASA
officials, the Army officials were conducting studies regarding certain parcels of land.
As of February 2013, Army officials were still conducting their Remedial Investigation/
Feasibility Study on ground water monitoring and the Military Munitions Response.
NASA officials stated they did not have any environmental concerns with MSAAP and the
permit termination completed smoothly without additional costs incurred.


Conclusion
Additional contamination and factors out of the Army’s control, such as lawsuits and
the identification of new land owners, contributed to delays and increased costs
for continued caretaker responsibilities and cleanup.       In addition, resolution of
disagreements with the Environmental Protection Agency, state environmental agency
officials, and the local redevelopment authorities could have potentially reduced
costs and minimized delays for the land transfer of installations closed under BRAC.
Army officials incurred additional costs ranging from $665,000 to an indeterminable
dollar value and indeterminable amount of delay for the land transfers because of
the additional contamination discovered and cleanup required. No new regulations
or requirements were enacted that increased the cost or delayed the land transfer;
however, in some instances, Army officials believe officials used new interpretations of
long standing regulations.




                                                                                       DODIG-2013-114 │ 23
Finding



                 Management Comments on the Finding and Our
                 Response
                 Based on comments received from the Deputy Assistant Secretary of the Army
                 (Installations, Housing, and Partnerships) and the Chief, Base Realignment and
                 Closure Division for the Army Assistant Chief of Staff for Installation Management as
                 well as discussions with DoD Office of General Counsel, we revised the report to clarify
                 our intent.


                 Assistant Secretary of the Army Comments
                 The acting deputy Assistant Secretary of the Army (Installations, Housing, and
                 Partnerships) commented for the Chief, Base Realignment and Closure Division for the
                 Army Assistant Chief of Staff for Installation Management that the Army is concerned
                 about inaccurate statements in the report regarding applied pesticides at Kansas Army
                 Ammunition Plant. The acting deputy stated that including the EPA’s view in the audit
                 report is inappropriate. Therefore, he did not agree with the finding of the audit. In
                 addition, he stated the DoD IG staff did not conduct discussions with Army and DoD
                 counsel and program officials actively involved with the pesticide issue. Further, he
                 stated that he concurred with the comments provided by the Chief, Base Realignment
                 and Closure Division for the Army Chief of Staff for Installation Management.


                 Our Response
                 We disagree with the acting deputy Assistant Secretary of the Army (Installations,
                 Housing, and Partnerships) comments. Congressional staffers requested that the DoD IG
                 audit team review the closure and land transfer of Army Ammunition Plants and
                 Chemical Depots closed under Base Realignment and Closure 2005 to determine the
                 causes of increased costs and delays. The disagreement between the Army and the
                 EPA on applied pesticides at Kansas Army Ammunition Plant is only one small part of
                 why the Army Base Realignment and Closure officials experienced cost increases and
                 delays during the closure and transfer of the installations reviewed. In conducting this
                 audit, the audit team did not only meet with Army and DoD officials involved, but also
                 with EPA officials, state environmental agency officials, and the local redevelopment
                 authorities to obtain information from all parties involved as an objective reviewer
                 and the report reflects each of these views. The DoD IG audit team does not endorse
                 the views expressed by any of the parties involved in the disagreement regarding
                 applied pesticides but simply presented all sides of the situation. In addition, the acting
                 deputy indicated that the DoD IG staff did not conduct discussions with Army and DoD
                 counsel and program officials actively involved. However, this statement is inaccurate



24 │ DODIG-2013-114
                                                                                                  Finding



as we met with the Army Base Realignment and Closure program managers for each
site reviewed as well as DoD officials from the Office of the Deputy Under Secretary of
Defense Installations and Environment, the DoD Office of General Counsel, and the
Office of Economic Adjustment. During our meeting with the Kansas Army Ammunition
Plant Base Realignment and Closure Environmental Coordinator an official from the
U.S. Army Legal Services Agency provided information about Kansas Army Ammunition
Plant and the applied pesticide matter.


Army Assistant Chief of Staff for Installation Management
Comments
The Chief, Base Realignment and Closure Division for the Army Assistant Chief of Staff
for Installation Management commented that the Army has concerns about the general
tone and statements in the report. He stated that the DoD IG did not incorporate any
of the Base Realignment and Closure Division’s clarifications and that the report read as
if the DoD IG does not understand the processes in place to guide the Base Realignment
and Closure process and to resolve environmental issues. Therefore, he disagreed
with our audit finding. In addition, he provided examples from the report that he believe
show the DoD IG is misinformed. Specifically:

      1.	   The Chief stated footnote number 2 on page 3, defining the National
            Priorities List is incorrect and misrepresents remediation at Riverbank Army
            Ammunition Plant.

      2.	   The Chief stated that the consideration of properly applied pesticides
            as solid waste is not Army policy and the pesticide issue was elevated to
            facilitate a resolution but is still not resolved. He added that an impasse
            does not equal ineffective communication and Army Base Realignment and
            Closure officials and regulators met several times, exchanged e-mails, and
            held conference calls in an attempt to resolve the issue.

Our Response
We disagree with the Chief, Base Realignment and Closure Division for the Army Assistant
Chief of Staff for Installation Management comments. Although he indicated that the
DoD IG did not incorporate any of the Base Realignment and Closure Division’s
clarifications into the report, we included over two dozen of the requested changes,
including an updated recommendation. We subsequently revised the recommendation
as well as portions of the report, in response to management comments, to clarify our
intent. We obtained the definition in example 1 (above) from the EPA website and




                                                                                        DODIG-2013-114 │ 25
Finding



                 included it in the audit report simply as a definition of the National Priorities List. We
                 included this footnote in the Riverbank Army Ammunition Plant section because it is
                 the first instance the term National Priorities List is used.

                 The second example provided by the Chief, Base Realignment and Closure, implies the
                 audit team stated that consideration of pesticides as solid waste is Army policy; however,
                 we do not state that this is Army policy. We acknowledge in the report that the Army
                 disagrees with the EPA on the applied-pesticide matter. We attribute the statement
                 about applied-pesticides being considered solid waste to EPA officials. In addition,
                 we acknowledge there was communication regarding the disagreement of applied
                 pesticides; however, letters and discussions did not resolve the disagreement, which
                 caused cost increases and delays. We requested alternate verbiage suggestions numerous
                 times from the Army Base Realignment and Closure Division officials; however, we
                 did not receive suggestions, only generalizations stating they did not agree with the tone
                 of the report.


                 Recommendation, Management Comments, and Our
                 Response
                 Revised Recommendation
                 As a result of comments from the Deputy Assistant Secretary of the Army (Installations,
                 Housing, and Partnerships) and the Chief, Base Realignment and Closure Division for
                 the Army Assistant Chief of Staff for Installation Management as well as discussions with
                 the DoD Office of General Counsel we revised the recommendation.

                 We recommend that the Chief, Base Realignment and Closure Division for the
                 Army Assistant Chief of Staff for Installation Management, establish a dispute
                 resolution plan through which the Army and the Environmental Protection
                 Agency, working in concert with state environmental agency officials, and the
                 local redevelopment authorities involved, can resolve disagreements as to cleanup
                 requirements and problems as they occur.


                 Assistant Secretary of the Army Comments
                 The acting deputy Assistant Secretary of the Army (Installations, Housing, and
                 Partnerships) provided comments for the Chief, Base Realignment and Closure Division
                 for the Army Assistant Chief of Staff for Installation Management. The acting deputy did
                 not agree with the recommendation and commented that the Army disagrees with the




26 │ DODIG-2013-114
                                                                                                     Finding



conclusion that ineffective communication was a primary cause of increased costs and
transfer delays. He also stated that disagreements occur routinely between agencies
over regulatory or policy matters but that this was not a failure to communicate effectively
on the part of the Army. Further, he stated that he concurred with the comments
provided by the Chief, Base Realignment and Closure Division for the Army Assistant
Chief of Staff for Installation Management.


Our Response
The acting deputy’s comments were not responsive, as they do not specifically address
the recommendation. However, we revised the recommendation and made numerous
revisions throughout the report in response to management comments to clarify our
intent. We indicated that untimely communication and disagreements between the
Army and the EPA about the cleanup of applied pesticides was one of the causes of
increased costs and transfer delays. We also recognized that discovery of additional
contamination and other factors outside the Army’s control contributed to the cost
increases and delays. Although we acknowledge that the Army communicated with
EPA, state environmental agency, and local redevelopment authority officials, the letters
and discussions did not resolve the disagreement. The Army and EPA officials engaged
in discussions and correspondence over a period of at least 16 months. According to
the April 30, 2012 letter from the EPA, Army and EPA officials agreed in March 2012
to establish a joint work group to discuss and resolve site-specific issues to provide
more consistency in addressing pesticides. More than a year later, the acting deputy’s
June 2013 comments indicate the disagreement remains unresolved, which indicates
the communications to date have been unproductive in reaching a resolution in a
timely manner.


Army Assistant Chief of Staff for Installation Management
Comments
The Chief, Base Realignment and Closure Division for the Army Assistant Chief of Staff
for Installation Management provided comments. The Chief, Base Realignment and
Closure Division disagreed and stated the report does not acknowledge or address
processes in place to work with the communities and regulators.


Our Response
The Chief, Base Realignment and Closure Division’s comments on the recommendation
were not responsive. We acknowledge that Army Base Realignment and Closure officials
communicated with the EPA, state environmental agency, and local redevelopment




                                                                                           DODIG-2013-114 │ 27
Finding



                 authority officials in an effort to resolve the disagreement. However, during the audit,
                 Army Base Realignment and Closure officials did not provide any details on specific
                 processes in place to address the disagreement, other than discussions, letters, e-mails,
                 and conference calls. Therefore, we recommended that the Chief, Base Realignment
                 and Closure Division for the Army Chief of Staff for Installation Management establish
                 a dispute resolution plan through which disagreements on cleanup requirements
                 and problems can be resolved as they occur. We request additional comments on the
                 recommendation in response to this final report by September 5, 2013.




28 │ DODIG-2013-114
                                                                                              Appendices




Appendix A
Scope and Methodology
We conducted this performance audit from August 2012 through May 2013 in accordance
with generally accepted government auditing standards.           Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

This audit was initiated in response to language contained in the report of the
Committee on Appropriations accompanying H.R. 5854 (House Report 112-491), the
Military Construction, Veterans Affairs, and Related Agencies Appropriations Bill for
FY 2013. The report required the DoD Office of Inspector General to review Base
Realignment and Closure (BRAC) 2005 closures and land transfers.

Specifically, congressional staffers requested the audit team review the environmental
cleanup and land transfer at the Army ammunition plants and chemical depots listed
under the BRAC 2005 closures to determine whether changes in requirements or
additional laws imposed contributed to increased costs and delays in the cleanup and
transfer at each of the six Army ammunition plants and chemical depots.

We held meetings with personnel from the Office of the Deputy Under Secretary
of Defense for Acquisition, Technology and Logistics (OUSD (AT&L)), DoD Office of
General Counsel, the Office of Economic Adjustment, the Army Office of Assistant Chief
of Staff for Installation Management, and the Environmental Protection Agency (EPA)
Headquarters. We also held telephone conference meetings with the Army Materiel
Command, Army Chemical Materials Agency, Army Joint Munitions Command,
Army Corps of Engineers, and Army Audit Agency.

We visited five of the six Army ammunition plants and chemical depots scheduled
for closure under BRAC 2005. During the site visits we conducted meetings with
Army, state environmental agency, EPA, and Local Redevelopment Authority (LRA)
officials involved with the closure and transfer of each site to discuss their involvement
with the closure, transfer of land, and environmental cleanup. During our visit to
Riverbank Army Ammunition Plant (RBAAP), we met with the:

         •	 California   Environmental   Protection    Agency,    Department    of   Toxic
           Substance Control;



                                                                                         DODIG-2013-114 │ 29
Appendices



                         •	 California EPA Central Valley Regional Water Quality Control Board, Region
                            (Central Valley Water Board);
                         •	 Riverbank Army Ammunition commander’s representative at the RBAAP;
                         •	 Riverbank Local Reuse Authority, the local redevelopment authority; and
                         •	 U.S. Environmental Protection Agency, Region 9.

                 During our visit to Kansas Army Ammunition Plant (KSAAP), we met with the:

                         •	 Kansas Department of Health and Environment;
                         •	 BRAC environmental coordinator at KSAAP;
                         •	 Great Plains Development Authority, the local redevelopment authority; and
                         •	 U.S. Environmental Protection Agency, Region 7.

                 During our visit to Lone Star Army Ammunition Plant (LSAAP), we met with the:

                         •	 BRAC environmental coordinator at the LSAAP;
                         •	 TexAmericas Center Executive Director, the local redevelopment authority;
                            and
                         •	 Texas Commission on Environmental Quality.

                 During our visit to Newport Chemical Depot (NECD), we met with the:

                         •	 Newport Chemical Depot Reuse Authority, the local redevelopment authority;
                         •	 Indiana Department of Environmental Management; and
                         •	 BRAC environmental coordinator at NECD.

                 During our visit to Umatilla Chemical Depot (UMCD), we met with the:

                         •	 Environmental Protection Agency;
                         •	 Oregon Department of Environmental Quality;
                         •	 BRAC environmental coordinator at UMCD; and
                         •	 Umatilla Army Depot Reuse Authority, the local redevelopment authority.

                 For the Mississippi Army Ammunition Plant (MSAAP) we conducted telephone
                 conference meetings with Mississippi Department of Environmental Quality and the
                 National Aeronautics and Space Administration to discuss its involvement with the land
                 transfer and closure of the MSAAP.




30 │ DODIG-2013-114
                                                                                           Appendices



In addition, we reviewed documents related to the transfer and closure of each site. We
reviewed the Finding of Suitability for Transfer, Environmental Condition of Property
and Reuse Plan for each site.    We reviewed the Defense Environmental Programs
Annual Report to Congress provided by the OUSD (AT&L) to determine the funding
amount and estimated cost to complete for each site as of November 2012. We also
reviewed the Defense Economic Adjustment Program factsheet for each site provided by
the Office of Economic Adjustment.


Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.


Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the Army
Audit Agency (AAA) have issued 10 reports discussing environmental cleanup
related to BRAC 2005. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted Army reports can be accessed from .mil and gao.gov
domains over the Internet at https://www.aaa.army.mil/.


GAO
GAO Report No. GAO-13-149, “Military Bases: Opportunities Exist to Improve Future Base
Realignment and Closure Rounds,” March 7, 2013

GAO Report No. GAO-12-513T, “Military Base Realignments and Closures: Key Factors
Contributed to BRAC 2005 Results,” March 8, 2012

GAO Report No. GAO-10-725R, “Military Base Realignments and Closures: DoD Is
Taking Steps to Mitigate Challenges but Is Not Fully Reporting Some Additional Costs,”
July 21, 2010

GAO Report No. GAO-10-547T, “Environmental Contamination: Information on the
Funding and Cleanup Status of Defense Sites,” March 17, 2010

GAO Report No. GAO-09-703, “Military Base Realignments and Closures: DoD Needs to
Update Savings Estimates and Continue to Address Challenges in Consolidating Supply
Related Functions at Depot Maintenance Locations,” July 9, 2009

GAO Report No. GAO-09-217, “Military Base Realignments and Closures: DoD Faces
Challenges in Implementing Recommendations on Time and Is Not Consistently Updating
Savings Estimates,” January 30, 2009



                                                                                      DODIG-2013-114 │ 31
Appendices



                 GAO Report No. GAO-07-304, “Military Base Closures: Projected Savings from Fleet
                 Readiness Centers Likely Overstated and Actions Needed to Track Actual Savings and
                 Overcome Certain Challenges,” June 29, 2007

                 GAO Report No. GAO-07-166, “Military Base Closures: Opportunities Exist to Improve
                 Environmental Cleanup Cost Reporting and to Expedite Transfer of Unneeded Property,”
                 January 30, 2007


                 Army
                 AAA Report No. A-2012-0094-IEE, “Audit of Environmental Remediation of Chemical
                 Demilitarization Base Realignment and Closure Sites,” May 1, 2012

                 AAA Report No. A-2011-0177-IEE, “Planning for Disposal of Chemical Demilitarization
                 and Storage Facilities, U.S. Army Chemical Materials Agency,” August 19, 2011




32 │ DODIG-2013-114
          equipment. However, the Commission determined that this issue did not rise to the level of requiring a revision to the DoD
          recommendation.
          The Commission found that the segment of DoD’s recommendation to direct work and personnel to Letterkenny Army                  Appendices
          Depot to correct work more efficiently performed at Seal Beach, where related work is already performed, deviated
          substantially from criteria #1 and #4. Rejection of the proposal also avoids holding missiles in inventory awaiting only
          delivery of their shipping containers from the East Coast. Therefore, the Commission deleted the section of the
          recommendation referring to the relocation of missile container work to Letterkenny.
  Appendix B
COMMISSION RECOMMENDATIONS

  Base
     fromRealignment                   andthe Closure        Recommendations
          The Commission found that the Secretary of Defense deviated substantially from final selection criteria 1 and 4, as well as
         the Force Structure Plan. Therefore, Commission recommends the following:
      Realign Naval Weapons Station Seal Beach, CA, as follows: relocate the depot maintenance of Electronic Components
  A copy of the Base Realignment and Closure (BRAC) recommendations for each of the
      (Non-Airborne), Fire Control Systems and Components, Radar, and Radio to Tobyhanna Army Depot, PA; relocate the
  six locations    is provided
       depot maintenance             below. to The
                         of Material Handling  Marinerecommendations            are
                                                      Corps Logistics Base Albany, GA;taken    directly
                                                                                       and relocate        from
                                                                                                    the depot      the
                                                                                                              maintenance
          of Other Components to Anniston Army Depot, AL.
  2005 Defense Base Closure and Realignment Commission Report.
          The Commission found that this change and the recommendation as amended are consistent with the final selection criteria
          and the Force Structure Plan. The full text of this and all Commission recommendations can be found in Appendix Q.


 RIVERBANK ARMY AMMUNITION P LANT, CA
 RECOMMENDATION # 151 (IND 5)
 ONE-TIME COST:                                         $25.2M
 ANNUAL RECURRING COSTS/(SAVINGS):                      ($6.5M)
 20-YEAR NET PRESENT VALUE:                             ($53.3M)
 PAYBACK PERIOD:                                        3 YEARS

SECRETARY OF DEFENSE RECOMMENDATION
          Close Riverbank Army Ammunition Plant, CA. Relocate the artillery cartridge case metal parts functions to Rock Island
          Arsenal, IL.

SECRETARY OF DEFENSE JUSTIFICATION
          There are 4 sites within the Industrial Base producing Metal Parts. To remove excess from the Industrial Base, the closure
          allows DoD to generate efficiencies and nurture partnership with multiple sources in the private sector.

COMMUNITY CONCERNS
          The community believes the recommendation to close the Riverbank Army Ammunition Plant (RBAAP) defied logic and
          common sense. They pointed out that NI Industries, Inc. has successfully operated the installation since 1951. They noted
          RBAAP hosts thirteen tenants with more than 200 employees. The community and NI Industries Inc. asserted that RBAAP
          is the only plant producing the deep-drawn steel cartridge cases needed for the Navy’s next generation fleet and the Army’s
          Future Combat System. The City of Riverbank challenged the rationale for, and pointed out risks associated with, closing
          this high-military-value production plant and asserted that production interruptions could hinder current and future military
          missions. The City adamantly opposed the closure, saying the closure recommendation was based on invalid criteria and
          faulty information, and questioned DoD’s estimated costs for dismantling, moving, and reassembling the plant’s complex

230




                                                                                                                                   DODIG-2013-114 │ 33
Appendices




                  Appendix B
                  Base Realignment and Closure Recommendations
                  (Cont’d)

                          equipment. They contended an unsuccessful relocation of equipment and a lack of highly skilled (artisan level) transferees
                          would have significant repercussions on military access to needed ordnance. The community concluded that the RBAAP
                          should remain a vital entity in the military arsenal.

                COMMISSION FINDINGS
                          The Commission found no reason to disagree with the recommendation of the Secretary of Defense. The commission
                          acknowledges the community’s concerns with the challenges of moving the deep-drawn steel cartridge case production line.
                          However, the commission does not find that the uniqueness of this production line reaches the level of substantial deviation
                          from the final selection criteria. The low utilization of this ammunition plant, coupled with the significant excess capacity for
                          munitions manufacturing in the US industrial base, created a very compelling case to rationalize manufacturing capacity.

                COMMISSION RECOMMENDATIONS
                          The Commission found the Secretary’s recommendation consistent with the final selection criteria and the Force Structure
                          Plan. Therefore, the Commission approves the recommendation of the Secretary.


                 SIERRA ARMY DEPOT, CA
                 RECOMMENDATION # 152 (IND 6)
                 ONE-TIME COST:                                         $33.4M
                 ANNUAL RECURRING COSTS/(SAVINGS):                      ($7.5M)
                 20-YEAR NET PRESENT VALUE:                             ($66.7M)
                 PAYBACK PERIOD:                                        7 YEARS

                SECRETARY OF DEFENSE RECOMMENDATION
                          Realign Sierra Army Depot, CA. Relocate Storage to Tooele Army Depot, UT and Demilitarization to Crane Army
                          Ammunition Activity, IN and, McAlester Army Ammunition Plant, OK.

                SECRETARY OF DEFENSE JUSTIFICATION
                          Capacity and capability for storage exists at numerous munitions sites. To reduce redundancy and remove excess from the
                          Industrial Base, the realignment allows DoD to create centers of excellence and remove inefficiencies.

                COMMUNITY CONCERNS
                          There were no formal expressions from the community.

                COMMISSION FINDINGS
                          The Commission found no reason to disagree with the recommendation of the Secretary of Defense.

                COMMISSION RECOMMENDATIONS
                          The Commission found the Secretary’s recommendation consistent with the final selection criteria and the Force Structure
                          Plan. Therefore, the Commission approves the recommendation of the Secretary.




34 │ DODIG-2013-114                                                                                                                                    231
                                                                                                                                              Appendices




  Appendix B
  Base Realignment and Closure Recommendations
  (Cont’d)

 KANSAS ARMY A MMUNITION P LANT, KS
 RECOMMENDATION # 155 (IND 9)
 ONE-TIME COST:                                         $25.2M
 ANNUAL RECURRING COSTS/(SAVINGS):                      ($10.3M)
 20-YEAR NET PRESENT VALUE:                             ($101.4M)
 PAYBACK PERIOD:                                        2 YEARS

SECRETARY OF DEFENSE RECOMMENDATION
          Close Kansas Army Ammunition Plant (AAP), KS. Relocate Sensor Fuzed Weapon/Cluster Bomb function and Missile
          warhead production to McAlester AAP, OK; 155MM ICM Artillery and 60MM, 81MM, and 120MM Mortar functions to
          Milan AAP, TN; 105MM HE, 155MM HE, and Missile Warhead functions to Iowa AAP, IA; and Detonators/relays/delays
          to Crane Army Ammunition Activity, IN.

SECRETARY OF DEFENSE JUSTIFICATION
          Capacity and capability for Artillery, Mortars, Missiles, and Pyro/Demo exists at numerous munitions sites. There are 8 sites
          producing Artillery, 5 producing Mortars, 9 producing Pyro/Demo, and 13 performing Demilitarization. To reduce
          redundancy and remove excess from the Industrial Base, the closure allows DoD to create centers of excellence, avoid single
          point failure, and generate efficiencies.

COMMUNITY CONCERNS
          Labette County and the city of Parsons supported the closure of the Kansas Army Ammunition Plant (KSAAP) but had
          concerns about their ability to redevelop the site’s facilities and property. They explained that the plant is located in a rural
          area with limited transportation access and that the loss of 267 jobs would exacerbate the county’s economic hardships. The
          Community wanted to accelerate the development of uncontaminated portions of the site through the use of leases prior to
          conveyance of the property. During the transition phase, the community proposed a $1 per annum lease between the US
          Government and the Local Reuse Authority (LRA). At the conclusion of the clean-up and transition phase, the community
          proposed the Government transfer all equipment, facilities and, property to the LRA at no cost. The Community expressed
          an interest in keeping the existing operating contractor in place as a tenant to compete for future DoD work, thereby
          retaining jobs in the community. The operating contractor noted potential issues with proprietary processes and
          recommended privatization in place for the KSAAP.

COMMISSION FINDINGS
          The Commission found no reason to disagree with the recommendation of the Secretary of Defense. The Commission
          examined the community’s proposals regarding conveyance, and decided to refer them to the Department for consideration
          during implementation of the recommendation. The Commission carefully considered the operating contractor’s
          recommendation of privatization-in–place, but rejected it due to the low utilization of the plant and the need to rationalize
          munitions production capacity in the US industrial base.

COMMISSION RECOMMENDATIONS
          The Commission found the Secretary’s recommendation consistent with the final selection criteria and the Force Structure
          Plan. Therefore, the Commission approves the recommendation of the Secretary.




234                                                                                                                                    DODIG-2013-114 │ 35
Appendices




                  Appendix B
                  Base Realignment and Closure Recommendations
                  (Cont’d)

                 MISSISSIPPI ARMY AMMUNITION PLANT, MS
                 RECOMMENDATION # 157 (IND 11)
                 ONE-TIME COST:                                          $32.4M
                 ANNUAL RECURRING COSTS/(SAVINGS):                       ($5.1M)
                 20-YEAR NET PRESENT VALUE:                              ($38.6M)
                 PAYBACK PERIOD:                                         7 YEARS

                SECRETARY OF DEFENSE RECOMMENDATION
                          Close Mississippi Army Ammunition Plant, MS. Relocate the 155MM ICM artillery metal parts functions to Rock Island
                          Arsenal, IL.

                SECRETARY OF DEFENSE JUSTIFICATION
                          There are 4 sites within the Industrial Base producing Metal Parts. To remove excess from the Industrial Base, the closure
                          allows DoD to generate efficiencies and nurture partnership with multiple sources in the private sector.

                COMMUNITY CONCERNS
                          The state of Mississippi supported the closure of the Army Ammunition Plant at Stennis Space Center, but also requested
                          review and comment on the projected costs for mitigation of the existing environmental and safety concerns. The state
                          contended that these facilities can be more effectively utilized through more aggressive and responsive local control, and that
                          closure would ameliorate the need for the Army to continue to spend millions of dollars annually to hold on to an
                          abandoned facility in growing disrepair.

                COMMISSION FINDINGS
                          The Commission found no reason to disagree with the recommendation of the Secretary of Defense. The low utilization of
                          this ammunition plant, coupled with significant excess capacity for munitions manufacturing in the US industrial base
                          created a compelling argument for rationalizing munitions manufacturing capacity.

                COMMISSION RECOMMENDATIONS
                          The Commission found the Secretary’s recommendation consistent with the final selection criteria and the Force Structure
                          Plan. Therefore, the Commission approves the recommendation of the Secretary.


                 HAWTHORNE ARMY DEPOT, NV
                 RECOMMENDATION # 158 (IND 12)
                 ONE-TIME COST:                                        N/A
                 ANNUAL RECURRING COSTS/(SAVINGS):                     N/A
                 20-YEAR NET PRESENT VALUE:                            N/A
                 PAYBACK PERIOD:                                       N/A

                SECRETARY OF DEFENSE RECOMMENDATION
                          Close Hawthorne Army Depot, NV. Relocate Storage and Demilitarization functions to Tooele Army Depot, UT.




                236
36 │ DODIG-2013-114
                                                                                                                                                Appendices




  Appendix                Bwould change to a recurring cost of $5.7 million. The payback period changed from three years to
    savings of $2.9 million
    “never” and the 20-year net present value savings of $28 million became a $53.1 million increased cost.


  BaseRECOMMENDATIONS
COMMISSION Realignment                         and Closure Recommendations
  (Cont’d)
          The Commission found that the Secretary of Defense deviated substantially from final selection criteria 1, 4 and 5, and the
          Force Structure Plan. Therefore, the Commission has rejected the recommendation of the Secretary. The Commission
          found this recommendation is consistent with the Force Structure Plan and final selection criteria.


 LONE STAR ARMY AMMUNITION P LANT, TX
 RECOMMENDATION # 162 (IND 16)
 ONE-TIME COST:                                           $29.0M
 ANNUAL RECURRING COSTS/(SAVINGS):                        ($17.3M)
 20-YEAR NET PRESENT VALUE:                               ($164.2M)
 PAYBACK PERIOD:                                          1 YEAR

SECRETARY OF DEFENSE RECOMMENDATION
          Close Lone Star Army Ammunition Plant (AAP), TX. Relocate the Storage and Demilitarization functions to McAlester
          AAP, OK. Relocate the 105MM and 155MM ICM Artillery, MLRS Artillery, Hand Grenades, 60MM and 81MM Mortars
          functions to Milan AAP, TN. Relocate Mines and Detonators/Relays/Delays functions to Iowa AAP, IA. Relocate
          Demolition Charges functions to Crane Army Ammunition Activity (AAA), IN.

SECRETARY OF DEFENSE JUSTIFICATION
          Capacity and capability for Artillery, Mortars, Missiles, Pyro/Demo, and Storage exists at numerous munitions sites. There
          are 8 sites producing Artillery, 5 producing Mortars, 9 producing Pyro-Demo, 15 performing storage, and 13 performing
          Demilitarization. To reduce redundancy and remove excess from the Industrial Base, the closure allows DoD to create
          centers of excellence, avoid single point failure, and generate efficiencies. Goal is to establish multi-functional sites
          performing Demilitarization, Production, Maintenance, and Storage. Lone Star primarily performs only one of the 4
          functions.

COMMUNITY CONCERNS
          The community noted that DoD gave the Lone Star Army Ammunition Plant (LSAAP) credit for only one of the functional
          areas making up a center of excellence and countered that the plant is a multifunctional site performing the full scope of
          functions—demilitarization, production, maintenance and, storage. The community asserted that DoD understated the
          number of personnel by 242, misreported current and maximum capacity as equal, and improperly excluded one-time
          relocation costs of $14 million from savings calculations. In addition, the community noted that some production lines were
          not accounted for in the data call, and that no credit was given for the complexity of producing ammunition. LSAAP also
          performs open burn and open detonation demilitarization and has 1.23M square feet of storage. The community asserted
          that directing LSAAP work to other Army ammunition activities would be contrary to DoD’s strategy to increase competitive
          contracting for ammunition production. They suggested that, if LSAAP is closed, its work could migrate to non-US
          producers. The operating contractor noted potential issues with proprietary processes and recommended privatization in
          place for the LSAAP.
          The Texarkana community proposed a public-private partnership as an alternative reuse of the installation and proposed the
          transfer of workload, equipment and, facilities to the private sector or local jurisdiction as appropriate since the private sector
          can accommodate the workload onsite.




                                                                                                                                        241




                                                                                                                                         DODIG-2013-114 │ 37
Appendices




                  Appendix B
                  Base Realignment and Closure Recommendations
                  (Cont’d)

                COMMISSION FINDINGS
                          The Commission found no reason to disagree with the recommendation of the Secretary of Defense. The Commission
                          examined the community’s proposals regarding conveyance and decided to refer them to the Department for consideration
                          during implementation of the recommendation. The Commission carefully considered the operating contractor’s
                          recommendation of privatization-in-place but rejected it due to the low utilization of the plant and the need to rationalize
                          munitions production capacity in the US industrial base.

                COMMISSION RECOMMENDATIONS
                          The Commission found the Secretary’s recommendation consistent with the final selection criteria and the Force Structure
                          Plan. Therefore, the Commission approves the recommendation of the Secretary.


                 DESERET CHEMICAL D EPOT, UT
                 RECOMMENDATION # 163 (IND 17)
                 ONE-TIME COST:                                            $18.3M
                 ANNUAL RECURRING COSTS/(SAVINGS):                         ($38.0M)
                 20-YEAR NET PRESENT VALUE:                                ($407.5M)
                 PAYBACK PERIOD:                                           IMMEDIATE

                SECRETARY OF DEFENSE RECOMMENDATION
                          Close Deseret Chemical Depot, UT. Transfer the storage igloos and magazines to Tooele Army Depot, UT.

                SECRETARY OF DEFENSE JUSTIFICATION
                          There is no additional chemical demilitarization workload slated to go to Deseret Chemical Depot. The projected date for
                          completion of its existing workload is 2nd quarter of 2008. Because of the close proximity of Deseret Chemical Depot to
                          Tooele Army Depot, the sophistication of the security system, the number and conditions of igloos and magazines, this
                          recommendation increases the storage and distribution deployment network capability at Tooele Army Depot at a minimal
                          cost.

                COMMUNITY CONCERNS
                          There were no formal expressions from the community.

                COMMISSION FINDINGS
                          The Commission found that the International Chemical Weapons Convention Treaty requires completion of the chemical
                          demilitarization mission prior to closure of this depot. An examination of status information for this depot’s mission
                          completion and subsequent closure revealed that dates may slip beyond the six-year statutory period for completion of
                          BRAC actions. Mission completion and closure dates beyond 2011 exceed the BRAC implementation period. The
                          Commission notes that the community would like the opportunity to convert the chemical demilitarization plant into a
                          conventional munitions demilitarization plant within the BRAC implementation timeframe.

                COMMISSION RECOMMENDATIONS
                          The Commission found that the Secretary of Defense deviated substantially from final selection criteria 1 and 4, as well as
                          from the Force Structure Plan. Therefore, the Commission recommends the following:
                          On completion of the chemical demilitarization mission in accordance with Treaty obligations and if, after completion of a
                          comprehensive study to evaluate Deseret Chemical Depot, UT, as a site for conventional weapons demilitarization it is


                242
38 │ DODIG-2013-114
                                                                                                                                        Appendices




  Appendix               B
    projections might vary, they did not vary sufficiently to call into question the logic and financial soundness of the proposal,
          nor did potential cost variances rise to the level of a substantial deviation from the final selection criteria.

  BaseRECOMMENDATIONS
COMMISSION Realignment                          and Closure Recommendations
  (Cont’d)
     The Commission found the Secretary’s recommendation consistent with the final selection criteria and the Force Structure
          Plan. Therefore, the Commission approves the recommendation of the Secretary.


 NEWPORT CHEMICAL DEPOT, IN
 RECOMMENDATION # 154 (IND 8)
 ONE-TIME COST:                                            $2.3M
 ANNUAL RECURRING COSTS/(SAVINGS):                         ($10.9M)
 20-YEAR NET PRESENT VALUE:                                ($132.6M)
 PAYBACK PERIOD:                                           IMMEDIATE

SECRETARY OF DEFENSE RECOMMENDATION
          Close Newport Chemical Depot, IN.

SECRETARY OF DEFENSE JUSTIFICATION
          There is no additional chemical demilitarization workload slated to go to Newport Chemical Depot. The projected date for
          completion of existing workload is 2nd quarter of 2008. There is no further use for Newport Chemical Depot.

COMMUNITY CONCERNS
          There were no formal expressions from the community.

COMMISSION FINDINGS
          The Commission found that the International Chemical Weapons Convention Treaty requires completion of the chemical
          demilitarization mission prior to closure of this depot. An examination of status information for this depot’s mission
          completion and subsequent closure revealed that dates may slip beyond the six--year statutory period for completion of
          BRAC actions. Furthermore, mission completion and closure dates beyond 2011 exceed the BRAC implementation period.

COMMISSION RECOMMENDATIONS
          The Commission found that the Secretary of Defense deviated substantially from final selection criteria 1 and 4, as well as
          from the Force Structure Plan. Therefore, the Commission recommends the following:
          On completion of the chemical demilitarization mission in accordance with Treaty obligations, close Newport Chemical
          Depot, IN.
          The Commission found that this change and the recommendation as amended are consistent with the final selection criteria
          and the Force Structure Plan. The full text of this and all Commission recommendations can be found in Appendix Q.




                                                                                                                                 233




                                                                                                                                 DODIG-2013-114 │ 39
Appendices


                COMMISSION FINDINGS
                  Appendix
                    The Commission agrees Bwith the Department’s goal of reducing its footprint while maintaining the portion of the arsenal
                    needed to fulfill core capabilities. The Commission encourages continued interaction between the Department and the
                          Local Reuse Authority to develop an industrial development plan.

                  Base Realignment and Closure Recommendations
                COMMISSION RECOMMENDATIONS
                  (Cont’d)
                     The Commission found the Secretary’s recommendation consistent with the final selection criteria and the Force Structure
                          Plan. Therefore, the Commission approves the recommendation of the Secretary.


                 UMATILLA C HEMICAL DEPOT, OR
                 RECOMMENDATION # 160 (IND 14)
                 ONE-TIME COST:                                      $13.6M
                 ANNUAL RECURRING COSTS/(SAVINGS):                   ($34.7M)
                 20-YEAR NET PRESENT VALUE:                          ($347.9M)
                 PAYBACK PERIOD:                                     IMMEDIATE

                SECRETARY OF DEFENSE RECOMMENDATION
                          Close Umatilla Chemical Depot, OR.

                SECRETARY OF DEFENSE JUSTIFICATION
                          No additional chemical demilitarization workload is slated to go to Umatilla Chemical Depot. The projected date for
                          completion of its existing workload is 2nd quarter of 2011. There is no further use for Umatilla Chemical Depot.

                COMMUNITY CONCERNS
                          The Umatilla Chemical Depot had been planning for closure since the initial 1988 BRAC realignment of the site. The
                          installation wanted to be closed through the BRAC process to obtain funds to assist site personnel and the community with
                          the post closure transition of the depot. The disposal of some existing facilities and land generated by the 1988 BRAC
                          realignment stopped after the 9/11 attacks in response to increased security requirements for chemical weapons storage and
                          disposal. Facilities and land that could have been disposed of became part of the protective buffer around the storage and
                          chemical disposal facilities. The community wanted a final decision and determination on the future of the Umatilla
                          Chemical Depot.

                COMMISSION FINDINGS
                          The Commission found that the International Chemical Weapons Convention Treaty requires completion of the chemical
                          demilitarization mission prior to closure of this depot. An examination of status information for this depot’s mission
                          completion and subsequent closure revealed that dates may slip beyond the six-year statutory period for completion of
                          BRAC actions. Furthermore, mission completion and closure dates beyond 2011 exceed the BRAC implementation period.

                COMMISSION RECOMMENDATIONS
                          The Commission found that the Secretary of Defense deviated substantially from final selection criteria 1 and 4, as well as
                          from the Force Structure Plan. Therefore, the Commission recommends the following:
                          On completion of the chemical demilitarization mission in accordance with Treaty obligations, close Umatilla Chemical
                          Depot, OR.



                                                                                                                                                 239




40 │ DODIG-2013-114
                                                                                                Appendices




Appendix C
Criteria
We reviewed the following criteria specifically related to Base Realignment and Closure
as well as criteria for environmental regulations and cleanup standards.


“Defense Base Closure and Realignment Act of 1990”
“Public Law 101-510, “The Defense Base Closure and Realignment Act of 1990,” as
amended through the National Defense Authorization Act of Fiscal Year 2003, mandates
that the Secretary close or realign all military installations recommended for closure
or realignment by the Commission through each report transmitted to the Congress by
the President. According to Public Law 101-510, the Secretary shall initiate all closures
and realignments no later than 2 years after the date the President transmits the report
containing the recommendations to Congress. Then completion of all closures and
realignments should occur no later than the end of the 6-year period beginning on the
date the President transmits the report.


“Military Base Reuse Studies and Community Planning
Assistance”
Section 2391, title 10, United States Code , “Military Base Reuse Studies and Community
Planning Assistance,” permits the Secretary of Defense to conduct studies, including
preparation of an environmental impact statement, to provide information to make
sound decisions regarding possible site reuse for closed military installations. In addition,
the Secretary of Defense may make grants, cooperative agreements, and supplement
funds available under Federal programs administered by Federal agencies other than
the DoD to assist state and local governments in planning community adjustments.


“Defense Environmental Restoration Program”
Section 2701, title 10, United States Code, “Environmental Restoration Program”, states
the Secretary of Defense must carry out a program of environmental restoration at
facilities under the jurisdiction of the Secretary. Program goals are:

         •	 identification, investigation, research and development, and cleanup of
            contamination from hazardous substances, pollutants, and contaminants;

         •	 correction of any environmental damage that creates an imminent and
            substantial danger to the public health or the environment; and




                                                                                           DODIG-2013-114 │ 41
Appendices



                          •	 demolition and removal of unsafe buildings and structures, including buildings
                            and structures of the DoD at sites formerly used by or under the jurisdiction
                            of the Secretary.

                 “National Environmental Policy Act of 1969”
                 The National Environmental Policy Act, codified in sections 4321 and 4331-4335 and
                 4341-4347, title 42, United States Code, establishes national environmental policy and
                 goals for the protection, maintenance, and enhancement of the environment. It also
                 provides a process for implementing these goals within Federal agencies.


                 “The Solid Waste Disposal Act,” (“Resource Conservation and
                 Recovery Act”)
                 The Resource Conservation and Recovery Act (RCRA), codified in section 6901-6992,
                 title 42, United States Code, provides requirements to promote the protection of
                 human health and the environment. It provides requirements on the generation of,
                 transportation of, storage of, and disposal of solid and hazardous wastes. Congress
                 declares the RCRA to be the national policy of the United States and where feasible, the
                 generation of hazardous waste is to be reduced or eliminated as expeditiously as possible.


                 “Comprehensive Environmental Response, Compensation, and
                 Liability Act of 1980,”
                 The Comprehensive Environmental Response, Compensation, and Liability Act, codified
                 in section 9601-9675, title 42, United States Code, is the environmental program
                 established to address uncontrolled releases of hazardous substances to the environment.
                 The law was enacted during the discovery of toxic waste dumps in the 1970s. The act
                 allows the Environmental Protection Agency (EPA) and other Federal agencies under
                 their jurisdiction to cleanup such sites and to compel responsible parties to perform
                 cleanup or reimburse the Government for Federal agency-led cleanups. The cleanup
                 process begins with site discovery or notification to EPA of possible releases of hazardous
                 substances. EPA then evaluates the potential for a release of hazardous substances from
                 the site through steps used in the cleanup process.


                 “Federal Water Pollution Control Act”
                 The Federal Water Pollution Control Act, codified in section 1251, title 33,
                 United States Code, objective is to restore and maintain the chemical, physical, and
                 biological integrity of the Nation’s waters. In regards to programs and water pollution
                 control, the Administrator shall prepare or develop comprehensive programs for




42 │ DODIG-2013-114
                                                                                                      Appendices



preventing, reducing, or eliminating pollution of the navigable waters and ground
waters as well as improving the sanitary condition of surface and underground
waters. The Administrator is authorized to make joint investigations of discharges of any
sewage, industrial wastes, or substance which may adversely affect the waters.


“Clean Air Act”
The Clean Air Act, codified in chapter 85, title 42, United States Code, protects and
enhances the quality of the Nation’s air resources to promote the public health
and welfare and the productive capacity of its population; to initiate and accelerate
a national research and development program to achieve the prevention and control
of air pollution.    It provides technical and financial assistance to State and local
governments in connection with the development and execution of their air pollution
prevention and control programs. It encourages and assists the development and
operation of regional air pollution prevention and control programs.


“The Endangered Species Act”
The Endangered Species Act, codified in section 1531-1544, title 16, United States Code
mandates that each Federal agency insure that any action authorized, funded, or carried
out is not likely to jeopardize the continued existence of any endangered species or
threatened species or result in the destruction or adverse modification of habitat of
such species, unless the agency has been granted an exemption for the action.


“National Historic Preservation Act”
The National Historic Preservation Act, codified in section 470, title 16,
United States Code, declared that the spirit and direction of the Nation are founded
upon and reflected in its historic heritage. The historical and cultural foundation of the
Nation should be preserved as a living part of our community life and development in
order to give a sense of orientation to the American people. The preservation of
irreplaceable heritage is in the public interest so that its vital legacy of cultural, educational,
aesthetic, inspirational, economic, and energy benefits will be maintained and enriched
for future generations of Americans.




                                                                                                 DODIG-2013-114 │ 43
Management Comments




                 Management Comments
          Assistant Secretary of the Army Comments
                 Assistant Secretary of the Army Comments     Final Report
                                                              Final Report
                                                                Reference
                                                                Reference




                             Click to add JPEG file          Revised
                                                            Revised
                                                            Recommendation
                                                             Recommendation




                                                             Revised
                                                            Revised
                                                            Page
                                                             Page1716-17




44 │ DODIG-2013-114
                                               Management Comments




Management Comments
Assistant Secretary of the Army Comments (cont’d)




                Click to add JPEG file




                                                     DODIG-2013-114 │ 45
Management Comments




                 Management Comments
                 Army Assistant Chief of Staff for Installation
          Army Assistant Chief of Staff for Installation Management
             Management Comments                                        Final Report
          Comments                                                      Final Report
                                                                          Reference
                                                                         Reference




                               Click to add JPEG file                  Revised
                                                                      Revised
                                                                       Recommendation
                                                                      Recommendation




                                                                       Revised
                                                                      Revised
                                                                       Page3 3
                                                                      Page




46 │ DODIG-2013-114
                                                 Management Comments




Management Comments
Army Assistant Chief of Staff for Installation
Management Comments (Cont’d)                          Final Report
                                                      Final Report
                                                        Reference
                                                       Reference




                                                     Revised
                                                    Revised
                                                     Page1616-17
                                                    Page




              Click to add JPEG file




                                                       DODIG-2013-114 │ 47
Acronyms and Abbreviations




                 Acronyms and Abbreviations
                             BRAC Base Realignment and Closure
                               EPA Environmental Protection Agency
                            KSAAP Kansas Army Ammunition Plant
                               LRA Local Redevelopment Authority
                            LSAAP Lone Star Army Ammunition Plant
                           MSAAP Mississippi Army Ammunition Plant
                             NASA National Aeronautics and Space Administration
                             NECD Newport Chemical Depot
                      OUSD (AT&L) Office of the Under Secretary of Defense (Acquisition, Technology, and Logistics)
                              PCBs Polychlorinated Biphenyls
                            RBAAP Riverbank Army Ammunition Plant
                             RCRA Resource Conservation and Recovery Act
                            UMCD Umatilla Chemical Depot




48 │ DODIG-2013-114
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
